TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Increased Automated Controls
                      Could Further Improve Accountability
                              Over Manual Refunds



                                      September 14, 2009

                              Reference Number: 2009-40-131




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 14, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Increased Automated Controls Could Further
                               Improve Accountability Over Manual Refunds (Audit # 200840033)

 This report presents the results of our review to determine if controls over manual refunds are
 effective in minimizing the risk of issuing erroneous refunds. The audit scope included both
 individual and business manual refunds issued during Calendar Years 2005, 2006, and 2007.
 This audit was initiated at the request of the Commissioner, Wage and Investment Division.

 Impact on the Taxpayer
 During Calendar Year 2007, the Internal Revenue Service (IRS) issued approximately
 184,000 manual refunds totaling over $1.5 billion to individual taxpayers and approximately
 70,000 manual refunds totaling almost $32 billion to business taxpayers. Our review identified
 that electronic data files supporting manual refund transactions were inaccurate, incomplete, and
 not always maintained by the IRS. As a result, neither the IRS nor its oversight organizations are
 able to perform systemic analyses to identify erroneous manual refunds. Given the large dollar
 amounts involved with manual refunds, this could result in a significant loss of Federal
 Government revenues.

 Synopsis
 A manual refund is a refund that is not generated through normal Master File1 computer
 processing. Manual refunds can be issued within 2 to 3 business days, compared to the 6 to


 1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
 business, and employee plans and exempt organizations data.
                          Increased Automated Controls Could Further Improve
                                  Accountability Over Manual Refunds



16 business days for the issuance of a Master File computer-generated refund based on the filing
of a tax return. There are two ways IRS employees can initiate a manual refund: 1) via the
Integrated Data Retrieval System (IDRS),2 or 2) a manual refund posting voucher (non-IDRS).3
IRS management acknowledges that the manual refund process presents a higher risk because
these refunds are not handled through its normal
systemic process. The majority of the process to
                                                        The current process to request
request and approve the billions in manual refunds is a and approve manual refunds is
paper-driven manual process.                               paper driven. Increased
                                                                        automated controls are needed
Our review identified that controls have been                             to improve accountability.
implemented in an effort to minimize the risk of issuing
erroneous manual refunds. These controls include:
•   Ensuring no employee can systemically input and authorize a manual refund payment.
•   Requiring the completion of a request form.
•   Requiring an Approving Official (front-line manager) to review manual refund request
    packages and approve via signature the legitimacy of the manual refund transaction.
Nonetheless, increased automated controls could further improve the accountability and
efficiency over manual refunds. Our review identified that electronic data files supporting
manual refund transactions were inaccurate, incomplete, and not always maintained by the IRS.
Furthermore, the managerial approval of manual refunds is a manual, resource-intensive process.
Current processes enable IRS employees to electronically request manual refunds, electronically
confirm the accuracy of information, and electronically confirm and generate the issuance of the
refund. Yet the most significant control in the process, managerial approval, is not recorded
electronically. Although a prepared request form is required to initiate a manual refund, and is
the only document which provides proof of managerial approval, we were not always able to
obtain the request form and related documentation.
The manager is the Approving Official responsible for reviewing the manual refund to ensure the
validity of the transaction. This is confirmed via a manual signing of the request form.
However, because the managerial approval is only notated on the request form, and not the
electronic record, it reduces management’s ability to identify potentially fraudulent manual
refunds because of the volume of transactions.



2
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
3
  A manual refund initiated via the non-IDRS process is used when manual refunds are over $10 million, are to be
paid via direct deposit, or are for hardship cases. A table with counts and dollar amounts by manual refund request
type can be found in Appendix VI.
                                                                                                                      2
                       Increased Automated Controls Could Further Improve
                               Accountability Over Manual Refunds




Recommendations
To improve accountability over manual refunds, we recommended that the IRS ensure the
identification number of the manual refund Requestor is not overridden on the IDRS electronic
data file. For non-IDRS manual refund transactions, the IRS should ensure the Requestor’s
employee identification number is captured in electronic data files. Also, the IRS should
establish a standardized computer record that includes key information on non-IDRS manual
refunds and establish a process to regularly obtain the electronic data file for use in monitoring
the program. To increase accountability, the IRS should develop a process to provide for a
systemic managerial approval. In the interim, the IRS should capture the identification number
of the Approving Official in the IDRS and Secure Payment System electronic data files.

Response
IRS management agreed with all of our recommendations and is taking actions to address the
recommendations. The IRS agreed to direct employees not to overlay the Requestor’s IDRS
number with a generic number. The IRS also plans to submit a Unified Work Request to
include an employee identification number for the originator and approving official for all
manual refunds with the Transaction Code 840 refund record (contingent on funding
availability). The information will be retained in an IRS electronic file. The IRS also indicated
the audit trail information provided by the Unified Work Request will impact the remaining two
recommendations.
The IRS provided comments regarding the missing manual refund request packages. The IRS
stated the Government Accountability Office (GAO) and the IRS Chief Financial Officer tested
internal controls, including requesting manual refund documents during the financial statement
audit, and that no problems were identified with the process. Due to concern about the file
retrieval problem we experienced, campus audit coordinators ordered the missing documents
again. According to the IRS, in 12 business days they were able to account for the documents.
IRS management also commented that steps were being taken to return Files operations to IRS
from a contractor during the audit period, and that the backlogs during this period contributed to
delays. Management’s complete response to the draft report is included as Appendix VII.

Office of Audit Comment
As we reported, we were unable to obtain 336 manual refund case files. In our attempt to
retrieve these documents, we followed IRS procedures. Management does not specify the
process that it used to retrieve these files. In discussions subsequent to our fieldwork,
management advised us that it uses a special retrieval process to obtain these documents. To
obtain these documents, IRS management suggested that we should have provided a listing of

                                                                                                     3
                      Increased Automated Controls Could Further Improve
                              Accountability Over Manual Refunds



case files to sample to the IRS for retrieval. However, because of the nature of the risks
associated with manual refunds, we wanted to reduce the potential for manipulation of the case
files and would not have used such a process. We requested the case files using the IDRS, which
is the process specified in the IRS’ own internal procedures and is the process used by IRS
employees requesting case files. The IRS’ subsequent retrieval of the case files was by a special
process outside of the process IRS employees would follow. We remain concerned that, using
its normal procedures, a significant number of case files were not received.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and
Account Services), at (202) 622-5916.




                                                                                                4
                              Increased Automated Controls Could Further Improve
                                      Accountability Over Manual Refunds




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 6
          Electronic Data Files Supporting Manual Refund
          Transactions Were Inaccurate, Incomplete, and Not
          Always Maintained .......................................................................................Page 7
                    Recommendations 1 and 2: ..............................................Page 11

                    Recommendations 3 and 4: ....................................................... Page 12

          Recording Managerial Approval Electronically Could
          Increase Accountability ................................................................................Page 12
                    Recommendation 5:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Relationship and Location Tests..........................................Page 19
          Appendix V – Examples of Manual Refund Request Forms........................Page 20
          Appendix VI – Comparison by Type of Manual Refund Request –
                        Calendar Years 2005 Through 2007 ....................................Page 22
          Appendix VII – Management’s Response to the Draft Report.....................Page 23
        Increased Automated Controls Could Further Improve
                Accountability Over Manual Refunds




                   Abbreviations

FMS          Financial Management Service
IDRS         Integrated Data Retrieval System
IRS          Internal Revenue Service
TIGTA        Treasury Inspector General for Tax Administration
                          Increased Automated Controls Could Further Improve
                                  Accountability Over Manual Refunds




                                            Background

A manual refund is a refund that is not generated through normal Master File1 computer
processing. During Calendar Year 2007, the Internal Revenue Service (IRS) issued
approximately 184,000 manual refunds totaling over $1.5 billion to individual taxpayers and
approximately 70,000 manual refunds totaling almost $32 billion to business taxpayers. Figure 1
provides a comparison of individual and business taxpayers receiving manual refunds during
Calendar Years 2005 through 2007.
      Figure 1 – Individual and Business Taxpayers Receiving Manual Refunds
                         Calendar Years 2005 Through 2007

                                                               Calendar Year
                                             2005                    2006                     2007

       Individual Taxpayers                      177,768                  191,323                 183,764
          Manual Refund
          Dollar Amount                 $1,313,639,918           $1,607,039,598          $1,516,216,443

        Business Taxpayers                         62,703                  69,228                   69,729
          Manual Refund
          Dollar Amount                $26,356,360,765         $30,819,398,979          $31,859,403,659
     Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of IRS manual refund data.

Manual refunds can be issued within 2 to 3 business days, compared to the 6 to 16 business days
for the issuance of a Master File computer-generated refund based on the filing of a tax return.
Manual refunds can be issued to any person and to any address. The name and address do not
have to match the name and address on the taxpayer account from which the manual refund was
generated. Most IRS functions (e.g., Accounts Management, Compliance, and the Taxpayer
Advocate Service) can request the issuance of a manual refund.
Common reasons manual refunds are issued are to:
•   Save the Federal Government interest.
•   Help taxpayers who are experiencing a hardship.

1
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 1
                           Increased Automated Controls Could Further Improve
                                   Accountability Over Manual Refunds



•   Prevent offsets2 during processing of injured spouse claims.
•   Enable special processing of refunds over $1 million or under $1.
•   Provide refunds to claimants on deceased taxpayer accounts.
There are two ways IRS employees can initiate a manual refund: 1) via the Integrated Data
Retrieval System (IDRS),3 or 2) a manual refund posting voucher (non-IDRS).4

Manual refunds requested via the IDRS:
•   The Requestor prepares a Request for IDRS                 A total of 729,684 manual refunds
    Generated Refund (Form 5792).5 Information                 totaling almost $19 billion were
    from the request form is entered into the IDRS           requested   via the IDRS for Calendar
    computer system by the IDRS Input Employee,      6            Years   2005 through 2007.
    and required supporting documentation (e.g., forms
    related to claims for injured spouse, carryback losses, death certificates, etc.) is attached to
    the Form 5792. The manual refund request package is then forwarded for approval to the
    Approving Official (front-line business unit manager).
•   The Approving Official reviews the manual refund request package to ensure the validity of
    the transaction and confirms this by signing the Form 5792. The Approving Official then
    sends the manual refund request package to the Manual Refund Unit for processing.
•   An employee in the Manual Refund Unit visually matches the Approving Official’s signature
    on Form 5792 to a book of approval signatures. If the approval signature is accepted as
    being a match, the employee (the IDRS Verifying Employee) then rekeys information from
    the Form 5792 into the IDRS to confirm the accuracy of the information input by the
    Requestor. If the information agrees, the transaction is forwarded systemically to the FMS7

2
  Internal Revenue Code Section 6402 (a), (c), (d), and (e) requires a taxpayer’s overpayment to be applied to any
outstanding Federal tax, non-tax child support, Federal agency non-tax debt, or State income tax obligation prior to
crediting the overpayment to a future tax or making a refund. This application of a tax overpayment is called a
refund offset. Refunds offset to child support, Federal agency non-tax debts, and State income tax obligations are
handled by the Financial Management Service (FMS) through the Treasury Offset Program. This occurs after a
refund is certified by the IRS for payment by the FMS, but before the refund check is issued or the direct deposit is
transferred to the taxpayer’s bank account.
3
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
4
  A manual refund initiated via the non-IDRS process is used when manual refunds are over $10 million, are to be
paid via direct deposit, or are for hardship cases. A table with counts and dollar amounts by manual refund request
type can be found in Appendix VI.
5
  See Appendix V for an example of a Form 5792.
6
  The Input Employee may be the actual Requestor or another employee, such as a clerk. The Input Employee
information, along with other systemic information, is captured in an electronic file.
7
  The FMS provides centralized payment, collection, and reporting services for Federal Government agencies.
                                                                                                              Page 2
                         Increased Automated Controls Could Further Improve
                                 Accountability Over Manual Refunds



    Secure Payment System.8 The manual refund request package is then forwarded to a
    Certifying Officer.
•   The Certifying Officer reviews the package and certifies the transaction on the Secure
    Payment System, which results in the refund being issued.
•   The Form 5792, along with any original supporting documentation, is sent to Files
    Management for storage and retention.

Manual refunds requested via manual refund posting voucher (non-IDRS):
•   The Requestor prepares a Manual Refund Posting Voucher (Form 3753),9 attaches required
    supporting documentation, and forwards the manual refund request package for approval to
    an Approving Official (front-line business unit manager).
•   The Approving Official reviews the manual refund request package to ensure the validity of
    the transaction and confirms this by signing the
    Form 3753. The Approving Official then sends
                                                          A total of 24,831 manual refunds
    the manual refund request package to the Manual           totaling $74.5 billion were
    Refund Unit for processing.                            requested via a manual refund
                                                                      posting voucher (non-IDRS) for
•   An employee in the Manual Refund Unit visually         Calendar Years 2005 through 2007.
    matches the Approving Official’s signature on the
    Form 3753 to a book of approval signatures. If the
    approval signature is accepted as being a match, the manual refund request package is then
    forwarded to a Data Entry Operator.
•   The Data Entry Operator enters information directly into the Secure Payment System,
    bypassing the IDRS. The manual refund package is then forwarded to a Certifying Officer.
•   The Certifying Officer reviews the request and certifies the transaction on the Secure
    Payment System, which results in the refund being issued.
•   The Form 3753 and supporting documentation are sent to be recorded via a journal entry into
    IRS computers (this needs to be done because the refund was not initiated through the IDRS).
    The Form 3753 and supporting documentation are then returned to the Manual Refund Unit.
    A copy of the Form 3753 and supporting documentation are to be retained for 18 months
    after the end of the processing year. The original Form 3753 and supporting documentation
    are retained in the Manual Refund Unit or sent to Files Management for storage and
    retention.


8
  The Secure Payment System is an application that allows Government agencies to create payment schedules in a
secure fashion.
9
  See Appendix V for an example of a Form 3753.
                                                                                                         Page 3
                      Increased Automated Controls Could Further Improve
                              Accountability Over Manual Refunds



Figure 2 provides a high-level overview of the request, approval, and refund issuance process.
              Figure 2 – Employee Roles in Processing Manual Refunds




          Source: TIGTA analysis.

                                                                                          Page 4
                         Increased Automated Controls Could Further Improve
                                 Accountability Over Manual Refunds



Manual refunds present a high risk of fraud
IRS management acknowledges that the manual refund process presents a higher risk because
these refunds are not processed through its normal systemic process (i.e., refunds issued based on
the filing and processing of tax returns). The majority of the process to request and approve the
billions of dollars in manual refunds is based on a paper-driven manual process. As such, the
risk for potential issuance of fraudulent refunds is increased.
An example from another government agency illustrates the risk involved in manual refund
payments. An employee of the District of Columbia government embezzled more than
$48 million over a 20-year period. The employee generated fraudulent property tax refund
requests. Some documentation supporting the requests appeared to be valid and legitimate.
Other supporting documentation was either absent or so disorganized that records could not be
located or did not make sense. The employee perpetrating the fraud benefited from the lack of
effective automated controls. Approving managers trusted this employee and did not perform
adequate reviews of the refund requests.
This audit was conducted at the request of the Commissioner, Wage and Investment Division.
This review was performed in coordination with FMS staff in Washington, D.C.; at the IRS
National Headquarters in Washington, D.C.; at the Fresno Submission Processing Campus in
Fresno, California;10 and with other IRS submission processing campuses through contact with
the IRS liaison during the period May 2008 through April 2009. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




10
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                       Page 5
                            Increased Automated Controls Could Further Improve
                                    Accountability Over Manual Refunds




                                        Results of Review

Controls have been implemented in an effort to minimize the risk of issuing erroneous manual
refunds. These controls include:
•    Ensuring no employee can systemically input and authorize payment on the same manual
     refund.
•    Requiring the completion of either Form 5792 or Form 3753.
•    Requiring an Approving Official (front-line manager) to review manual refund request
     packages and approve, via signature, the legitimacy of the manual refund transaction.
•    Capturing some key transactional information in an electronic audit trail11 and other data
     files.
However, increased automated controls could further improve accountability and efficiency over
manual refunds. Our review identified that electronic data files were either incomplete or
contained inaccurate information; others were not always maintained by the IRS. Furthermore,
the managerial approval of manual refunds is only
notated on the request form and not the electronic
                                                              The current process to request
record. Although a prepared request form is required to       and approve manual refunds is
initiate a manual refund, and is the only document which          paper driven. Increased
provides proof of managerial approval, we were not            automated controls are needed
always able to obtain the request form and related               to improve accountability.
documentation.
Adequate information should be captured in electronic data files12 to enable IRS management
and its external oversight organizations to perform computer analyses in an attempt to identify
potentially erroneous manual refunds. The conditions cited above reduce management’s ability
to identify potentially fraudulent or erroneous manual refunds because of the lack of access to
adequate reliable information and the volume of transactions. Given the dollar amounts involved
with manual refunds, this could result in a significant loss of Federal Government revenues.

11
   Electronic audit trails maintain a record of system activity both by system and application processes and by user
activity of systems and applications. Audit trails help managers maintain individual accountability. By advising
users that they are personally accountable for their actions, which are tracked by an audit trail that logs user
activities, managers can help promote proper user behavior. Users are less likely to attempt to circumvent security
policy if they know that their actions will be recorded in an audit trail. Although audit trails are essential to auditors,
they are also important to agencies in their day-to-day operation of a system. Audit trails provide agencies with
information necessary to reconcile accounts, research document history, and query the data stored in the system.
12
   Electronic data files capture transactional data from the IDRS or other application programs.
                                                                                                                  Page 6
                           Increased Automated Controls Could Further Improve
                                   Accountability Over Manual Refunds



Electronic Data Files Supporting Manual Refund Transactions Were
Inaccurate, Incomplete, and Not Always Maintained
The IRS has implemented some controls, such as separation of duties, over the manual refund
process that ensure the same individual cannot systemically both request and approve a manual
refund. However, the IRS does not consistently capture and retain key information relative to
manual refund transactions in its electronic data files. Additionally, although prepared request
forms are required to initiate a manual refund, we were not always able to obtain the request
forms and related documentation. The inaccurate, incomplete, and unretained electronic data
files indicate that IRS management does not have the necessary information and has not included
the use of electronic data files in its process to monitor the effectiveness of internal controls in
reducing the risk of issuing erroneous manual refunds. Standards for Internal Control in the
Federal Government13 require that information be recorded and communicated to management
and others within the entity who need it and in a form and within a period that enables them to
carry out their internal controls and other responsibilities. If improvements are not made, both
the IRS and its oversight organizations will be unable to effectively assess a multibillion dollar
high-risk process.

Systemic controls provide for adequate separation of duties
Both the IDRS and the non-IDRS processes systemically prevent the same employee from
inputting and forwarding a request for payment for the same manual refund:
•      The IDRS does not allow the same employee to both input a manual refund request and
       forward a request for payment for the same manual refund. We observed that the IDRS Input
       Employee is systemically prevented from also acting as the IDRS Verifying Employee for
       IDRS-generated refunds. In addition, audit trail data of IDRS command codes used to input
       and approve payment are kept by the IRS and contain information on who input the
       transaction, what taxpayer account was accessed, and when the action occurred. Our analysis
       of the IDRS audit trails confirmed that no employee acted as both the IDRS Input Employee
       and the IDRS Verifying Employee for the same manual refund.
•      For the non-IDRS requests, the Secure Payment System prevents the same employee from
       inputting and approving payment for the same manual refund. Representatives from the
       FMS confirmed that Secure Payment System systemic controls prevent the same person from
       having Data Entry Operator access (ability to input a manual refund request) and Certifying
       Officer access (ability to approve the issuance of a manual refund) for the same manual
       refund transaction. The FMS has implemented access and password security controls over
       the system. Our analysis of transactional information we obtained from the FMS verified
       that none of the manual refund records were input and approved by the same employee.

13
     Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, dated November 1999).
                                                                                                      Page 7
                          Increased Automated Controls Could Further Improve
                                  Accountability Over Manual Refunds



Electronic data files capture certain manual refund transactional information, but
improvements are needed to increase accuracy and completeness
Both the IRS and the FMS are capturing certain transactional information relating to manual
refunds issued via the IDRS and non-IDRS (directly through the Secure Payment System)
methods. For IDRS requests, the audit trail file captures the identity of the employees who input
and approve payment for IDRS manual refunds. For most IDRS transactions, the employee
number for the employee who requested the manual refund, although not captured on the audit
trail file, is input to the IDRS along with other information on the Form 5792. For non-IDRS
requests, the FMS Secure Payment System data file includes the identities of the IRS employees
who input the manual refund transactions, along with the IRS employees who certified the
refunds for payment.
However, electronic data files did not always accurately reflect the IRS employee initiating a
manual refund. Specifically, we identified that:
•    Invalid Requestor employee numbers14 for thousands of IDRS manual refund transactions
     have been recorded in the IDRS.
•    The Requestor identity for non-IDRS transactions is never recorded in an electronic data file.
Our review identified over 58,000 manual refund transactions for which the electronic data files
did not accurately identify the Requestor. Specifically,
from 2005 through 2007:
•    Over 33,000 manual refund transactions initiated via          Over 58,000 manual refund
                                                                    transactions did not have
     the IDRS had an invalid employee identification             accurate Requestor information
     number for the Requestor. The IRS sometimes                     on the electronic record.
     overlaid the employee number with a non-employee
     number to generate a single listing of manual refund
     posting activity from the requesting unit. Instead of the Requestor’s employee number being
     used as the employee needing to monitor the account, a unit employee number is used to help
     ensure at least one employee in the unit monitors the account. The purpose is to facilitate
     oversight and address a known internal control weakness that allowed erroneous refunds to
     be issued.15 Nevertheless, omitting the Requestor identity from the electronic records has


14
  The IDRS employee number is a unique number that identifies each employee on the IDRS.
15
  Government Accountability Office reviews have found that the IRS has not provided sufficient monitoring of
manual refund transaction postings. Refund Requestors are required to monitor taxpayer accounts for which they
have requested a manual refund until the manual refund transactions have posted. In some cases, this monitoring
process was not successful, and duplicate refunds were issued to taxpayers because both a manual refund and a
computer-generated refund were issued, resulting in erroneous duplicate refunds to taxpayers. See Management
Report: Improvements Needed in IRS’ Internal Controls (GAO-07-689R, dated May 11, 2007) and Management
Report: Improvements Needed in IRS’ Internal Controls (GAO-05-247R, dated April 27, 2005).
                                                                                                          Page 8
                        Increased Automated Controls Could Further Improve
                                Accountability Over Manual Refunds



    reduced the ability to trace transactions to requesting employees and to detect suspicious
    employee activity.
•   Almost 25,000 non-IDRS manual refund requests did not have the Requestor identity
    captured in an electronic data file. This results from non-IDRS manual refund requests being
    input directly to the Secure Payment System by a Manual Refund Unit Data Entry Operator,
    rather than by the requesting employee. Again, omitting the Requestor identity from the
    electronic records has reduced the ability to trace transactions to requesting employees and to
    detect suspicious employee activity. Adding to this concern, all manual refunds of
    $10 million and over must be requested via a non-IDRS manual refund request.
The lack of data to identify the Requestor of the manual refund reduced our ability to identify
potentially fraudulent manual refund transactions because we were unable to perform data
analysis (see Appendix IV) to determine if a relationship exists between the recipient of the
manual refund and the Requestor. See Figure 3 for a summary of the manual refunds for which
the electronic data file did not accurately reflect the Requestor initiating the refund.
                Figure 3 – Manual Refunds for Which Electronic Data
            Did Not Accurately Reflect the Requestor Initiating the Refund

                                                       Calendar Year
                                     2005                   2006                     2007
IDRS refunds with                               573                13,863                   19,272
invalid employee
number                                      $867,764          $25,056,087              $42,363,542

Non-IDRS refunds for                            508                    540                       623
$10 million or more
                                   $19,278,461,025        $23,200,977,589          $22,512,915,253
Non-IDRS refunds                               7,293                7,235                     8,632
for less than
$10 million                         $2,780,225,593         $3,125,151,411           $3,646,794,375

                                               8,374               21,638                   28,527
Totals
                                   $22,059,554,382        $26,351,185,087          $26,202,073,170
Source: TIGTA analysis of IRS manual refund data.




                                                                                            Page 9
                       Increased Automated Controls Could Further Improve
                               Accountability Over Manual Refunds



The IRS did not maintain Secure Payment System transactional files and the
format of data captured was not consistent, which reduces the ability to perform
data analysis
The IRS does not retain Secure Payment System electronic data files from the FMS (these are the
files that capture information relating to non-IDRS manual refunds). IRS management noted that
the paper trail is adequate for historic purposes and that the FMS retains the non-IDRS manual
refund file information. However, discussions with FMS personnel identified that it would be
difficult for the IRS to access historic Secure Payment System files because they are stored in
archives that are not readily accessible to the FMS as part of routine operations. It took the FMS
almost 2 months to provide us our requested Secure Payment System data output.
In addition, the Secure Payment System file with non-IDRS transactions we obtained from the
FMS was difficult to work with due to the different formats used in the description fields where
taxpayer information (e.g., who the refund was issued to, type of tax return, or tax period) is
located. For example:
•   The type of tax return was not consistently identified. Either a code or a form number could
    be used to indicate to what tax return the refund related (e.g., Master File Tax Code 30 or
    Form 1040).
•   The tax year was not consistently documented. The tax year could be indicated by a format
    with 4 or 6 digits for the month and year (e.g., 0612 or 200612 to indicate December 2006).
•   The location (starting character number) of this information varied within the field.
Examples of actual descriptions include:
                           •   200512 F 1040 IRS FRESNO
                           •   RMT*TN*F1040 TY9912*03/79.26*04/3.65
                           •   F1040 TY9412
                           •   30 200512 82
Consequently, even if the IRS was to retain copies of the data, analysis would be very difficult.
While the meaning could usually be determined by a visual examination of the field contents, it
was extremely difficult to extract by a computer program. By developing a standardized
description format, the IRS would be able to conduct computerized analyses of these manual
refunds.

Request forms are required to be prepared, but some were missing
The IRS was unable to provide us with 336 (39 percent) of the 851 manual refund request
packages we requested. Specifically, IRS procedures require either a Form 5792 or Form 3753
to be prepared by an employee requesting a manual refund. The IRS noted that the request forms
and attachments are the key support for manual refund transactions. The request forms are the

                                                                                            Page 10
                      Increased Automated Controls Could Further Improve
                              Accountability Over Manual Refunds



only source of information that can be used to identify the Approving Official who approved the
request information.
Standards for Internal Control in the Federal Government state that transaction documentation,
whether paper or electronic, should be readily available for examination and all documentation
and records should be properly managed and maintained. The unavailability of both paper and
electronic records increases the risk that fraud could occur and remain undetected.

Transactions having certain characteristics have been referred to the Office of
Investigations
Because the Requestor of the manual refund could not be identified from the data file, we were
unable to perform tests (see Appendix IV) to determine if a relationship exists between the
recipient of a manual refund and the Requestor. However, based on our risk assessment, we
have identified individual and business manual refund transactions that we consider to have
characteristics that increase the potential that the refund could have been inappropriately issued.
We have referred these transactions to our Office of Investigations. These manual refund
transactions include refunds to taxpayers or addresses that are different from the owner of the tax
account. We will continue to work jointly with our Office of Investigations to identify IRS
employees that may have inappropriately issued a manual refund.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure the Requestor’s employee identification number is not
overridden on the IDRS electronic data file.
       Management’s Response: IRS management agreed with this recommendation. The
       Internal Revenue Manual 21.4.4 has been revised to require that a separate control be
       established in the IDRS for monitoring all manual refunds. An interim procedural update
       will direct employees not to overlay the Requestor’s IDRS number with a generic number
       when initiating IDRS manual refunds.
Recommendation 2: Ensure the Requestor’s employee identification number is captured in
electronic data files for non-IDRS manual refunds.
       Management’s Response: IRS management agreed with this recommendation. A
       Unified Work Request will be submitted by October 1, 2009, to include the Standard
       Employee Identification number of the Requestor and Approving Official for all manual
       refunds. This information will be included in the Transaction Code 840 refund record
       that displays on the Master File and Non-Master File. Form 3753 and Form 5792 will be
       updated to capture the Requestor’s and Approving Official’s Standard Employee


                                                                                           Page 11
                      Increased Automated Controls Could Further Improve
                              Accountability Over Manual Refunds



       Identification number. Implementation is contingent upon Modernization and
       Information Technology Services funding.
Recommendation 3: Establish a process to regularly obtain the electronic data file that
includes key information relative to those non-IDRS manual refunds for use in monitoring the
manual refund program.
       Management’s Response: IRS management agreed with this recommendation. The
       Unified Work Request that the IRS is submitting for corrective action to
       Recommendation 2 (to update the Transaction Code 840 refund record for manual
       refunds) will give the IRS the required information that can be maintained as an
       electronic file. This file will be supported by Modernization and Information Technology
       Services and available on request.
Recommendation 4: Establish input procedures for non-IDRS manual refund requests
entered into the Secure Payment System to include a standardized computer record. The
standardized record format with key information will allow for easy data analysis.
       Management’s Response: IRS management agreed with the need for an audit trail
       and computer records. Although the IRS will not be changing the Secure Payment
       System, the Unified Work Request to update the Transaction Code 840 refund record for
       manual refunds will allow the Master File to store an electronic audit trail for easy data
       analysis. Implementation is contingent upon Modernization and Information Technology
       Services funding.

Recording Managerial Approval Electronically Could Increase
Accountability
                                        The managerial approval process is a manual,
       The managerial approval          resource-intensive process. Current processes enable
   process is manual, vulnerable to     IRS employees to electronically request manual refunds,
    circumvention, and difficult to     electronically confirm the accuracy of information, and
   evaluate because of the volume       electronically confirm and generate the issuance of the
            of transactions.
                                        refund. Yet the most significant control in the process,
                                        managerial approval, is not recorded electronically. The
manager is the Approving Official responsible for reviewing the manual refund to ensure the
validity of the transaction. This is confirmed via the manager’s written signature on the manual
refund request form. However, the volume of manual refund transactions, combined with the
fact that managerial approval is only notated on the paper request form (and not the electronic
record), reduces management’s ability to identify potentially fraudulent manual refunds.
Each time a new Approving Official is added or there is a change to the status of an Approving
Official, new signature sheets need to be obtained and maintained in the signature verification

                                                                                         Page 12
                      Increased Automated Controls Could Further Improve
                              Accountability Over Manual Refunds



log (or removed from the log). Additionally, current signature sheets should be updated at least
annually. Manual Refund Units are located at seven IRS campuses, and each campus maintains
its own book of applicable managers’ signatures. As of June 2008, there were a total of almost
2,200 Approving Official signature sheets throughout the 7 IRS campuses. This paper process
presents the risk that someone can circumvent the approval control by forging a manager’s
signature.
The IRS already uses automated authentication processes. Both the IDRS and the Non-IDRS
manual refund request methods include automated processes that record the individuals who
input (the IDRS Input Employee or the Data Entry Operator) and approve payment (the
Certifying Officer) on manual refunds. This process also includes programming that prevents
issuance if the data does not match for the two commands that are used. These commands are
captured in the audit trail data along with dozens of other types of system access commands.
However, although the review and approval by a manager is the key control to ensure the
legitimacy of a manual refund request, no electronic process has been established to systemically
capture the Approving Official on the electronic record of the transaction.
One way to capture Approving Official identity for manual refunds requested via the IDRS
would be to have an additional command added to the IDRS for an Approving Official entry,
similar to the two commands that already exist for input by the IDRS Input Employee and
payment approval by the IDRS Verifying Employee. This would allow for the Approving
Official identity to be included in the audit trail files automatically for the existing system.
Including this information in electronic files could enable the IRS and its external oversight
organizations to efficiently review the data to ensure management is approving each transaction.
Establishing such a process to replace the current paper signature approval process would
increase the efficiency of the approval process and help minimize the potential of a manager’s
signature being forged.
IRS management believes that the preparation of the manual refund request form, along with the
Approving Official’s signature, provides an adequate audit trail supporting the initiation and
approval of a manual refund. IRS management stated that the current manual system is
adequate, such changes would not be a high priority, and programming changes required for an
electronic approval would be too expensive. However, they did not provide information to show
that such a programming change would be a significant expense.
The IRS has recently begun to scan and store manual refund documentation from the Centralized
Insolvency Unit in Philadelphia to make this information accessible to all submission processing
centers. This process is newly developed; however, if the IRS is successful in scanning and
storing this information and the process is cost-effective and more efficient, then this process
could be expanded to include all manual refund request forms.




                                                                                         Page 13
                      Increased Automated Controls Could Further Improve
                              Accountability Over Manual Refunds



Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 5: Develop a process to provide for a systemic managerial approval to
increase accountability. In the interim, the IRS should capture the identification number of the
Approving Official in the IDRS and Secure Payment System electronic data files.
       Management’s Response: With regard to this recommendation, implementation of
       Recommendation 2 will result in the IDRS capturing the identification number of the
       Approving Official. The IRS does not own or control the Secure Payment System and
       cannot change the files in this FMS system. The proposed changes to the IDRS will
       provide the necessary electronic audit trail.




                                                                                          Page 14
                          Increased Automated Controls Could Further Improve
                                  Accountability Over Manual Refunds



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall audit objective of this review was to determine if controls over manual refunds are
effective in minimizing the risk of issuing erroneous refunds. Our audit scope included both
individual and business manual refunds of $400 or more issued during Calendar Years 2005,
2006, and 2007. To determine if the controls over manual refunds are effective we:
I.      Researched prior manual refund issues and previously reported control breakdowns.
        A. Requested information from the TIGTA Office of Investigations relating to manual
           refund investigations.1
        B. Obtained and reviewed audit report findings reported by the Government
           Accountability Office.
        C. Reviewed Internal Revenue Manual guidelines to identify procedures followed for
           initiating, approving, and issuing manual refunds.
II.     Analyzed electronic manual refund data files (Individual and Business Master File2 and
        Manual Refund IDRS3 Processing files) from the TIGTA Data Center Warehouse to
        identify potential fraud cases. We relied on data validity and reliability checks routinely
        done by the Data Center Warehouse staff for these files. Our analysis included:
        A. Identifying employees who initiated and approved a manual refund for Calendar
           Years 2005 through 2007.
             1. Obtaining refund transaction files for both individual and business manual
                refunds.
             2. Querying electronic files to identify employees initiating and approving a manual
                refund.
             3. Reviewing supporting paper manual refund packages for selected transactions of
                interest to determine if any evidence of fraud, wrongdoing, or other suspicious
                transactions should be referred to the TIGTA Office of Investigations.



1
  There were no proven cases of employee manual refund thefts.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
3
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                           Page 15
                         Increased Automated Controls Could Further Improve
                                 Accountability Over Manual Refunds



III.    Analyzed IDRS security profiles to identify IRS employees who have the ability to
        initiate and approve manual refunds. These files were obtained from the TIGTA Data
        Center Warehouse. Reliability was assessed with respect to cases reviewed, and no
        errors came to our attention during the review. In addition, we reviewed security controls
        over FMS-issued manual refunds.
        A. Obtained IDRS security profiles for all IRS employees.
        B. Identified IRS employees having command codes to both initiate and approve a
           manual refund and determined whether any of those employees improperly initiated
           and approved a manual refund.
        C. Contacted the FMS4 to obtain a listing of all IRS employees having Secure Payment
           System5 access.
        D. Analyzed the security profile data to determine if IRS employees had the ability to
           input and certify payment of manual refunds.
IV.     Analyzed audit trail data files obtained from the TIGTA Data Center Warehouse to
        identify indications of IRS employees that may have fraudulently obtained manual
        refunds. We relied on the data validity and reliability checks routinely done by the
        TIGTA Data Center Warehouse staff for these files. Specific tests included:
        A. Obtained audit trail files containing IRS employee accesses to accounts from which
           manual refunds were issued during Calendar Years 2005 through 2007.
        B. Analyzed audit trail data files to determine if IRS employees have initiated and
           approved a manual refund for the same taxpayer.
        C. Analyzed audit trail data files to determine if IRS employees initiated and approved
           manual refunds to identify potential indications of fraud.
            1. Identified manual refunds issued to an IRS employee.
            2. Identified manual refunds that were mailed to addresses near the initiating or
               approving IRS employees’ addresses.




4
 The FMS provides centralized payment, collection, and reporting services for Federal Government agencies.
5
 The Secure Payment System is an application that allows Government agencies to create payment schedules in a
secure fashion.
                                                                                                      Page 16
                     Increased Automated Controls Could Further Improve
                             Accountability Over Manual Refunds



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell Martin, Director
Richard J. Calderon, Audit Manager
Mary Jankowski, Lead Auditor
Sharon A. Buford, Senior Auditor
Kenneth L. Carlson, Senior Auditor
Karen C. Fulte, Senior Auditor
Glory Jampetero, Senior Auditor
John Mansfield, Senior Auditor
Steven Stephens, Senior Auditor
Jennie Choo, Auditor
Jane Lee, Auditor




                                                                                    Page 17
                     Increased Automated Controls Could Further Improve
                             Accountability Over Manual Refunds



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Deputy Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief Technology Officer OS:CTO
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Field Specialists, Large and Mid-Size Business Division SE:LM:FS
Director, Communication and Liaison, Large and Mid-Size Business Division SE:LM:M:CL
Chief, Program Evaluation and Improvement SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM:CL
       Commissioner, Small Business/Self-Employed Division SE:COM
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL
       Chief, Program Evaluation and Improvement SE:W:S:PRA:PEI
       Chief, Appeals AP:TP:SS


                                                                                    Page 18
                  Increased Automated Controls Could Further Improve
                          Accountability Over Manual Refunds



                                                                          Appendix IV

               Relationship and Location Tests
1. High volume of manual refund requests with same initiating employee and same
   forwarding employee combination.
2. Manual refunds issued to taxpayers with an IRS employee relationship to the Requestor.
3. Large dollar manual refunds issued by employees less than 2 weeks before or after an
   employee separates from the IRS.
4. Manual refunds issued to address near address of requesting employee, such as a
   neighbor or relative.
5. Manual refunds requested by same requesting employee to same taxpayer in different
   years.
6. Manual refunds initiated and approved by the same employee for Calendar Years 2005
   through 2007.




                                                                                     Page 19
      Increased Automated Controls Could Further Improve
              Accountability Over Manual Refunds



                                                 Appendix V

Examples of Manual Refund Request Forms

                    Form 5792




                                                           Page 20
Increased Automated Controls Could Further Improve
        Accountability Over Manual Refunds




              Form 3753




                                                     Page 21
                         Increased Automated Controls Could Further Improve
                                 Accountability Over Manual Refunds



                                                                                 Appendix VI

      Comparison by Type of Manual Refund Request
          Calendar Years 2005 Through 2007

                                                        Calendar Year
 Individual Taxpayers                  2005                 2006                  2007
 IDRS                                         171,839              185,686               178,045
 Manual Refund
 Dollar Amount                    $     898,113,002     $    938,161,114     $ 1,036,229,311
 Manual Posting
 (Non-IDRS)                                     5,929                5,637                 5,719
 Manual Refund
 Dollar Amount                    $     415,526,916     $    668,878,484     $    479,987,132


                                                        Calendar Year
 Business Taxpayers                    2005                 2006                  2007
 IDRS                                          60,831               67,090                66,193
 Manual Refund
 Dollar Amount                    $ 4,713,201,063       $ 5,162,148,463      $ 6,179,681,163
 Manual Posting
 (Non-IDRS)                                     1,872                2,138                 3,536
 Manual Refund
 Dollar Amount                    $ 21,643,159,702      $ 25,657,250,516     $ 25,679,722,496
Source: TIGTA analysis of IRS manual refund data.




                                                                                          Page 22
       Increased Automated Controls Could Further Improve
               Accountability Over Manual Refunds



                                                 Appendix VII

Management’s Response to the Draft Report




                                                            Page 23
Increased Automated Controls Could Further Improve
        Accountability Over Manual Refunds




                                                     Page 24
Increased Automated Controls Could Further Improve
        Accountability Over Manual Refunds




                                                     Page 25
Increased Automated Controls Could Further Improve
        Accountability Over Manual Refunds




                                                     Page 26
Increased Automated Controls Could Further Improve
        Accountability Over Manual Refunds




                                                     Page 27
